r>

No:

In the
Supreme Court of the United States

VICTOR SANTANA-GONZALEZ,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PROOF OF SERVICE
I, Victor Santana-Gonzalez, do swear declare that on this day, \j^iay of
July 2020, as required by Supreme Court Rule 29,1 have served the enclosed
Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari,
on the Solicitor General of the United States, Room 5614, Department of Justice,
10th Street and Constitution Ave., N.W., Washington, D.C. 20530, and every other
person required to be served, by depositing the same in the Prison’s Legal Mail
Box with sufficient First Class Prepaid Postage.

RECEIVED
JUL 2 \ 2020

• s„-

Done this

('Vflay of July 2020.

Victor Santana-Gonzalez
Register Number: 66703-018
FCI Butner Low
P.O. Box 999
Butner, NC 27509

